TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Insufficient and Inexperienced Staff Could
                    Reduce the Ability to Detect and Stop
                              Fraudulent Refunds



                                         January 8, 2010

                              Reference Number: 2010-40-017




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    January 8, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                    (for)   Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Insufficient and Inexperienced Staff Could
                                  Reduce the Ability to Detect and Stop Fraudulent Refunds
                                  (Audit # 200940032)

 This report presents the results of our review to assess Internal Revenue Service (IRS) efforts to
 ensure a successful transition of pre-refund fraud detection activities from the Criminal
 Investigation Division to the Wage and Investment Division. This review was conducted as part
 of the Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan
 related to the major management challenge of Erroneous and Improper Payments and Credits.

 Impact on the Taxpayer
 The Questionable Refund Program is a nationwide, multi-functional program designed to detect
 and stop fraudulent claims for refunds on income tax returns. Pre-refund fraud detection
 activities have been transferred from the Criminal Investigation Division to the Wage and
 Investment Division Accounts Management function. We are concerned that staffing may not be
 sufficient, which could result in a reduction of fraudulent refunds identified and stopped.
 Insufficient staffing may also reduce the ability of the IRS to provide timely assistance to
 taxpayers who experience delays in receiving their refund or who are victims of identity theft.

 Synopsis
 In early 2006, the IRS Taxpayer Advocate Service released its 2005 Annual Report to Congress,
 which identified refund freezes 1 placed on taxpayer accounts by the IRS Criminal Investigation

 1
     The refund freeze condition on the taxpayer’s account prevents the release of the refund to the taxpayer.
                  Insufficient and Inexperienced Staff Could Reduce the Ability to
                                 Detect and Stop Fraudulent Refunds



Division as one of the most serious problems encountered by taxpayers and called for
improvements to the Questionable Refund Program. Shortly after the release of the report, the
IRS Commissioner directed a review of the
Questionable Refund Program. In October 2006, the
IRS established the Pre-Refund Program Office to          The IRS has taken actions or is in
                                                           the process of taking actions to
develop an enterprise vision and strategy for IRS
                                                          ensure the Wage and Investment
pre-refund activities. To achieve the goals of the new           Division will assume
Pre-Refund Program, the IRS launched three important        responsibility for transitioned
initiatives, including the Fraud Detection Center               activities as planned.
(FDC) 2 Transition Team. In mid-January 2008, the
FDC Transition Team began studying which FDC
work processes and associated resources could move from the Criminal Investigation Division to
the Wage and Investment Division Accounts Management function.
The FDC Transition Team recommended the realignment of five activities from the Criminal
Investigation Division to the Wage and Investment Division Accounts Management function.
The Team was also responsible for ensuring the transition of selected work activities and
associated resources to the Accounts Management function. According to the IRS, moving these
resources will capitalize on opportunities to complete this work more efficiently.
The Wage and Investment Division assumed responsibility for performing transitioned
Questionable Refund Program activities on October 11, 2009. However, we believe that staffing
may not be sufficient. Management used the actual hours charged by employees in Fiscal
Year 2007 for the activities being transitioned and then revalidated the results by using the actual
hours charged in Fiscal Year 2008 rather than performing a comprehensive analysis to determine
                                          the average time to complete one unit of work. The
    Insufficient and inexperienced        analysis, which established that the Accounts
  staff could result in a reduction of    Management function would receive 248 Full-Time
          fraudulent refunds              Equivalents 3 to work transitioned activities, did not
        identified and stopped.           include an assessment of the anticipated workload
                                          volumes by activity for the year and the average time to
                                          complete one unit of work.
During the course of our review, we raised our concerns to management regarding the potential
effect of insufficient and inexperienced staff on program accomplishments. Management
responded that the pre-refund fraud detection procedures provide a greater level of detail than
has been available in prior filing seasons and that each new employee will be provided training.


2
  Criminal Investigation Division personnel at the 10 FDCs review questionable tax returns prior to the release of a
refund.
3
  A Full-Time Equivalent (FTE) is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the
number of compensable days in a particular fiscal year. For Fiscal Year 2008, 1 FTE was equal to 2,096 staff hours.
                                                                                                                   2
                     Insufficient and Inexperienced Staff Could Reduce the Ability to
                                    Detect and Stop Fraudulent Refunds



In addition, the Commissioner, Wage and Investment Division, and the Chief, Criminal
Investigation Division, stated that they are prepared to work staffing issues cross-functionally if
filing season workloads require. A memorandum of understanding between the Wage and
Investment Division and Criminal Investigation Division stipulates that if the Accounts
Management function has insufficient staff to work the inventories, then the Criminal
Investigation Division will detail employees for the duration of the filing season or until peak
inventories are reduced to a manageable level. We plan to monitor the impact of staffing on
transitioned activities during the 2010 Filing Season and will include results in both our 2010
Interim Filing Season report and 2010 Filing Season report.

Recommendation
We recommended that the Commissioner, Wage and Investment Division, perform a
comprehensive analysis during the 2010 Filing Season to determine the average time to complete
one unit of work for each of the transitioned activities. The average time to complete one unit of
work should then be applied to the anticipated workload volumes to identify staffing resources
needed to timely complete these activities in Processing Year 4 2011.

Response
IRS management agreed with our recommendation. The IRS will analyze the volume of work
and staff hours needed to perform the 2010 Filing Season work in order to determine the
resources required to timely complete the projected work in the 2011 Filing Season.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




4
    A processing year is the calendar year the return or document is processed by the IRS.
                                                                                                      3
                     Insufficient and Inexperienced Staff Could Reduce the Ability to
                                    Detect and Stop Fraudulent Refunds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Insufficient and Inexperienced Staff Could Result in a Reduction of
          Fraudulent Refunds Identified and Stopped .................................................Page 6
                    Recommendation 1:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
       Insufficient and Inexperienced Staff Could Reduce the Ability to
                      Detect and Stop Fraudulent Refunds




                       Abbreviations

EFDS             Electronic Fraud Detection System
FDC              Fraud Detection Center
FTE              Full-Time Equivalent
IRS              Internal Revenue Service
QRP              Questionable Refund Program
                  Insufficient and Inexperienced Staff Could Reduce the Ability to
                                 Detect and Stop Fraudulent Refunds




                                            Background

The Questionable Refund Program (QRP) is a nationwide, multi-functional program designed to
detect and stop fraudulent claims for refunds on income tax returns. The Electronic Fraud
Detection System (EFDS) is the primary information system used to support the QRP. The
EFDS applies specific fraud criteria to tax returns filed
with the Internal Revenue Service (IRS) in an attempt to
identify questionable tax returns with refunds.                The Questionable Refund
                                                                          Program is a nationwide,
Prior to the release of a refund, questionable tax returns                multi-functional program
are reviewed at the Criminal Investigation Division’s                  designed to identify fraudulent
                                                                         tax returns and to stop the
10 Fraud Detection Centers (FDC). 1 FDC personnel                      payment of fraudulent refunds.
scan the identified tax returns to determine fraud
potential. During this scanning process, FDC personnel
use information, including prior year tax returns, to
assist in determining if further verification is warranted. If a tax return is selected for
verification, the refund is held until employers or third parties are contacted to verify wage
information. If the verification concludes that a tax return contains false information (e.g., false
or inflated wages), the tax return is referred to either the Accounts Management function or the
Examination function for resolution. 2 If fraud was not detected, the IRS releases the refund.
Figure 1 identifies the number of fraudulent returns and refunds identified and stopped by the
QRP in Processing Years 3 2007 and 2008.




1
  The FDCs are located at the returns processing campuses in Fresno, California; Atlanta, Georgia;
Covington, Kentucky; Andover, Massachusetts; Kansas City, Missouri; Brookhaven, New York;
Philadelphia, Pennsylvania; Memphis, Tennessee; Austin, Texas; and Ogden, Utah. Campuses are the data
processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and forward data
to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Returns with certain refundable credits, such as the Earned Income Tax Credit, and returns for which refunds were
issued are sent to the Examination function because the law requires the IRS to follow deficiency procedures before
making an assessment in these cases.
3
  A processing year is the calendar year the return or document is processed by the IRS.
                                                                                                           Page 1
                   Insufficient and Inexperienced Staff Could Reduce the Ability to
                                  Detect and Stop Fraudulent Refunds



             Figure 1: Fraudulent Returns and Refunds Identified and Stopped
                           for Processing Years 2007 and 2008
    Processing       Number of                 Number of               Amount of               Amount of
      Year        Fraudulent Refund            Fraudulent              Fraudulent             Fraudulent
                  Returns Identified         Refunds Stopped        Refunds Identified      Refunds Stopped

      2007               240,406                  189,915                $1,467,762,110        $1,203,795,853

    2008               380,656                306,128            $1,959,992,377                $1,683,912,973
Source: Criminal Investigation Division QRP Workload Comparison Summary Reports.

Concerns raised by the National Taxpayer Advocate resulted in revisions to the
QRP
In early 2006, the IRS Taxpayer Advocate Service released its 2005 Annual Report to Congress
which identified refund freezes 4 placed on taxpayer accounts by the IRS Criminal Investigation
Division as one of the most serious problems encountered by taxpayers and called for
improvements to the QRP. Shortly after the release of the report, the IRS Commissioner directed
a review of the QRP. In October 2006, the IRS established the Pre-Refund Program Office to
develop an enterprise vision and strategy for IRS pre-refund activities. To achieve the goals of
the new Pre-Refund Program, the IRS launched three important initiatives, including the FDC
Transition Team. In mid-January 2008, the FDC Transition Team began studying which FDC
work processes and associated resources could move from the Criminal Investigation Division to
the Wage and Investment Division Accounts Management function.
The core objective of the FDC Transition Team was to identify work processes residing within
the FDCs that could be realigned to the Accounts Management function, which would free up
Criminal Investigation Division personnel to focus on scheme development. 5 The FDC
Transition Team recommended the realignment of the following activities from the Criminal
Investigation Division to Wage and Investment Division Accounts Management function:
      •   Scanning tax returns to identify fraud.
      •   Verifying wage and withholding information with third parties.
      •   Resolving account issues that prevent workload transfers of fraudulent tax returns to the
          Examination function or Accounts Management function for a tax assessment. For
          example, the posting of a second tax return on the same account would require resolution
          prior to the referral for assessment.



4
 The refund freeze condition on the taxpayer’s account prevents the release of the refund to the taxpayer.
5
 Scheme development is the identification of multiple returns containing false or fictitious claims for refund that
appear to be related.
                                                                                                              Page 2
                     Insufficient and Inexperienced Staff Could Reduce the Ability to
                                    Detect and Stop Fraudulent Refunds



    •    Addressing refund inquiries from taxpayers who contacted toll-free customer service sites
         and the Taxpayer Advocate Service regarding the status of their refund when the refund
         is delayed for verification of wage and withholding information with third parties.
    •    Adjusting tax returns for victims of identity theft.
The FDC Transition Team was also responsible for the transition of selected work activities and
associated resources to the Accounts Management function by October 11, 2009. According to
the IRS, moving these resources will capitalize on opportunities to complete this work more
efficiently. In addition, recommendations were made by the FDC Transition Team and accepted
by the Accounts Management function to reduce the number of sites performing QRP activities
from 10 sites to 7 sites. Activities currently performed in Brookhaven, New York;
Philadelphia, Pennsylvania; and Memphis, Tennessee, will be realigned to the remaining seven
FDC sites for the 2010 Filing Season. Figure 2 shows the transitioned work activities and the
Full-Time Equivalents (FTE) 6 that each of the seven sites will be primarily responsible for in the
2010 Filing Season. 7
                   Figure 2: Accounts Management Function Activities by Site
                                  for the 2010 Filing Season
                                                                                 Kansas
                     Andover   Atlanta     Austin     Cincinnati    Fresno        City        Ogden        Total
    Program          Campus    Campus      Campus      Campus       Campus       Campus       Campus       FTEs
Scanning                  14           9         16                       13              9                    61
Verification               2         25           2            35         22            12          19        117
Workload
Transfers                              1          4             1           2            2                     10
Refund Inquiries                       1          1             1                        13         13         29
Identity Theft                         1          6             1           7                       12         27
               8
Other Direct                           1                                    1             1          1             4
Total FTEs              16         38            29           38          45             37         45        248
Source: FDC Transition Project Office.

This review was performed at the Wage and Investment Division Office of Electronic Tax
Administration and Refundable Credits and the Criminal Investigation Division Office of Refund
Crimes in Washington, D.C. The review was also performed at the FDCs located in


6
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2008, 1 FTE was equal to 2,096 staff hours.
7
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
8
  Time charged by employees not specific to the other programs listed, such as researching Employer Identification
Numbers that may not be valid or correct.
                                                                                                            Page 3
                Insufficient and Inexperienced Staff Could Reduce the Ability to
                               Detect and Stop Fraudulent Refunds



Atlanta, Georgia; Covington, Kentucky; Memphis, Tennessee; and Austin, Texas, during the
period February through September 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 4
                   Insufficient and Inexperienced Staff Could Reduce the Ability to
                                  Detect and Stop Fraudulent Refunds




                                       Results of Review

The IRS has taken a number of actions to facilitate the transition of QRP activities to the Wage
and Investment Division. These actions include:
    •    Implementing effective governance and project management processes for the transition
         effort. These processes enabled the IRS to ensure that transition efforts met intended
         objectives and were planned and executed in a controlled and orderly manner.
    •    Preparing key project documents including a business case to identify anticipated costs
         and benefits, and a project plan to monitor the status and progress of the transition
         activities.
    •    Developing procedures and training materials for the various transitioned activities in an
         effort to ensure that Accounts Management function staff can accurately complete their
         required tasks.
    •    Announcing 222 positions on July 27, 2009, to be filled in the Accounts Management
         function. The IRS plans to fill all vacant positions by December 21, 2009, with training
         completed in early January 2010. However, as of September 30, 2009, the IRS had not
         filled any of the 222 positions.
    •    Performing a System Acceptability Test 9 to ensure changes to the EFDS were
         successfully programmed. These changes include the automatic generation of
         notification letters to third parties and the retrieval of tax returns for scanning on a
         first-in/first-out basis to improve the efficiency of the scanning process. Testing began
         on September 14, 2009.
    •    Developing a site deployment plan to ensure newly hired and transferring staff have the
         workspace and computers needed to perform their duties.
    •    Developing performance measures. Although the IRS had planned to have these
         performance measures developed by August 31, 2009, they were still being developed as
         of September 30, 2009.
Although the Accounts Management function assumed responsibility for transitioned activities
on October 11, 2009, staffing may not be sufficient which could result in a reduction of
fraudulent refunds identified and stopped, and the inability of the IRS to timely provide
assistance to taxpayers experiencing delays in receiving their refund or who are victims of

9
  The process of testing a system or program to ensure it meets the original objectives outlined by the user in the
requirement analysis document.
                                                                                                               Page 5
                Insufficient and Inexperienced Staff Could Reduce the Ability to
                               Detect and Stop Fraudulent Refunds



identity theft. Management used the actual hours charged by employees in Fiscal Year 2007 for
the activities being transitioned and then revalidated the results by using the actual hours charged
in Fiscal Year 2008 rather than performing a comprehensive analysis to determine the average
time to complete one unit of work. In addition, the analysis, which established that the Accounts
Management function would receive 248 FTEs to work transitioned activities beginning
October 11, 2009, did not include an assessment of the anticipated workload volumes by activity
for the year and the average time to complete 1 unit of work.
During the course of our review, we raised our concerns to management regarding the potential
effect that insufficient and inexperienced staff may have on program accomplishments.
Management responded that the pre-refund fraud detection procedures provide a greater level of
detail than has been available in prior filing seasons and that each new employee will be
provided training. In addition, the Commissioner, Wage and Investment Division, and the Chief,
Criminal Investigation Division, stated that they are prepared to work staffing issues
cross-functionally if 2010 Filing Season workloads require. A memorandum of understanding
between the Wage and Investment Division and the Criminal Investigation Division stipulates
that if the Accounts Management function has insufficient staff to work the inventories, then the
Criminal Investigation Division will detail employees for the duration of the filing season or
until peak inventories are reduced to a manageable level. We plan to monitor the impact of
staffing on transitioned activities during the 2010 Filing Season and will include results in both
our 2010 Interim Filing Season report and 2010 Filing Season report.

Insufficient and Inexperienced Staff Could Result in a Reduction of
Fraudulent Refunds Identified and Stopped
The Accounts Management function may not have adequate staffing in Fiscal Year 2010, which
could result in a reduction in the number of fraudulent refunds identified and stopped. When
calculating staffing requirements, the IRS should have identified the anticipated units to be
worked for the transitioned activities and then performed a comprehensive analysis to determine
the average number of units of work that could be completed per hour. The estimated units to be
worked should then have been divided by the average units completed per hour to determine the
staff hours required. Instead, the IRS used the actual hours charged by experienced employees in
Fiscal Year 2008 to compute the Fiscal Year 2010 staffing.
The IRS attempted to use a comprehensive analysis to compute the average time needed to
accomplish a unit of work for each of the transitioned activities. This analysis included
observing a sample of units processed by employees at a limited number of the FDCs and then
calculating the work rate by dividing the number of units processed by the time expended per
unit. The IRS performed this analysis for the scanning tax return activity, the verifying wage and
withholding information activity, and the refund inquiry activity. Although the IRS computed
the average time to complete these activities, it did not use this computation when determining
staffing that would be needed to perform the work for these activities.

                                                                                             Page 6
                   Insufficient and Inexperienced Staff Could Reduce the Ability to
                                  Detect and Stop Fraudulent Refunds



The IRS did not perform this analysis for the remaining transitioned activities. For example, the
IRS did not perform this analysis in an attempt to identify staffing needed for adjusting tax
returns for victims of identity theft, which is an activity for which the Criminal Investigation
Division has experienced staffing shortages in Fiscal Year 2009. When questioned, IRS
management stated that they believed the analysis of actual hours charged in Fiscal Year 2008
provided the best top-level view for determining the allocation of staffing for transitioning
activities. However, a recent IRS analysis of the hours charged between May 30, 2009, and
August 15, 2009, reflected that employees were charging an average of 1,600 hours per week to
work identity theft cases. The analysis also estimated that 800 new cases would be received per
week through mid-October 2009 and that the inventory would continue to increase by 160 cases
per week using an estimated case closure rate of .4 cases per hour. If the weekly receipts and the
case closure rate remain constant, we calculate that the Accounts Management function will need
approximately 104,000 staff hours in Fiscal Year 2010 for the identity theft workload. However,
the Accounts Management function will only be allocated 27,942 staff hours because that is what
Criminal Investigation Division employees charged in Fiscal Year 2008.

Despite concerns raised as to the accuracy of Fiscal Year 2008 actual time
charges, IRS management used this information to determine staffing levels
The Accounts Management function will receive approximately 11 fewer employees to perform
the scanning of tax returns in Fiscal Year 2010 than the Criminal Investigation Division
employed in this activity in Fiscal Year 2008. The reduction in staffing is a result of
management’s concern regarding the accuracy of employee time charges for the scanning
activity. Management believes that employees were working on scheme development 10 but were
charging time to the scanning of tax returns. The basis for this conclusion was a comparison of
weekly hours charged for scanning tax returns in Calendar Years 2007 and 2008 to the weekly
volume of returns scanned. Management concluded that as much as 30 percent of the hours
charged to scanning in Calendar Years 2007 and 2008 could have been in support of scheme
development.
Nonetheless, there was no empirical evidence to support the fact that employees were
erroneously charging their time to scanning tax returns when they were actually working on
scheme development. Management planned to validate their decision to reduce staffing for
scanning tax returns in Fiscal Year 2010 by reviewing the hours charged to scanning tax returns
in Fiscal Year 2009. However, management was unable to perform this review because of
problems with the criteria used by the EFDS to identify questionable returns which were
detected early in the 2009 Filing Season. These problems caused an unusually low volume of
returns to be identified for scanning. This resulted in a departure from the normal identification


10
  Scheme development is the identification of multiple returns containing false or fictitious claims for refund that
appear to be related.
                                                                                                              Page 7
                  Insufficient and Inexperienced Staff Could Reduce the Ability to
                                 Detect and Stop Fraudulent Refunds



and scanning process of questionable returns, which management explained affected the
reporting of time and complicated any analysis of time reported for scanning activities.
Since the IRS was experiencing problems with the EFDS identifying returns for the QRP, the
staff hours expended to scan and verify each return may not have been accurately reported for
the work performed, thereby complicating any analysis of the 2009 Filing Season. We recognize
that errors in time reporting can occur since employees working in the FDCs may perform
multiple program activities each week. During our review, some employees indicated that the
accuracy of the hours being recorded between activities was questionable.

Staffing levels were based on a highly experienced staff; however, most of the
individuals performing these activities in Fiscal Year 2010 will be new to these
activities
Using the actual hours to identify staffing needs could result in the IRS not having adequate
staffing to sustain its ability to identify and stop fraudulent refunds. The actual hours charged to
the transitioned activities in Fiscal Year 2008 are based on a highly experienced staff. 11
However, when the Accounts Management function assumes responsibility for the transitioned
activities, the majority of the individuals performing these duties will be new employees. Of the
359 employees who will be working on the transitioned activities, 62 percent (222 employees)
will be new to the program.
We surveyed a judgmental sample of 100 employees (10 employees at each FDC) and received
responses from 61 employees who noted that they had worked in a FDC for an average of
9 years. Figure 3 identifies the number of years worked by the surveyed employees. In addition,
45 of the surveyed employees believed that it took at least 1 year or more to become proficient in
their assigned duties. Assigned duties of the surveyed employees included identity theft, refund
inquiries, scanning, scheme development, and verification.




11
  We considered the staff at the FDCs to be highly experienced based on the low employee turnover rates indicated
by the results of our employee survey and discussions held during walkthroughs at two FDCs.
                                                                                                          Page 8
                   Insufficient and Inexperienced Staff Could Reduce the Ability to
                                  Detect and Stop Fraudulent Refunds



                         Figure 3: Number of Years Worked at the FDCs

                           40

                           30

                           20

                           10

                             0
                                                                                             Did Not
                                   <1 Year       1-2 Years     3-5 Years      5+ Years
                                                                                             Specify

                   Responses           3             5             15             36             2

             Source: Treasury Inspector General for Tax Administration survey of FDC employees.

Of additional concern is that the 222 new employees will either be seasonal or temporary
employees. The hiring of seasonal employees could result in higher turnover rates, thereby
reducing the possibility of an increased number of experienced employees performing the work
in subsequent years. For example, the Criminal Investigation Division had only seven seasonal
employees on the rolls and experienced very low turnover rates. IRS management is filling
positions with seasonal or temporary employees because the activities being transitioned to the
Accounts Management function are seasonal in nature with the majority of workload demand
occurring between January and June. Management has developed a contingency plan in case
workload issues arise during Fiscal Year 2010. The Criminal Investigation Division has agreed
to provide staffing to the Accounts Management function if needed.

Fiscal Year 2008 staffing levels were used despite clear indications that these
levels were inadequate
Unlike some of the other transitioned activities (scanning and verification), the IRS cannot adjust
tolerances to control the workload volume for taxpayer cases that require assistance as the result
of identity theft. 12 Similar to the other transitioned activities, the IRS’ determination of staffing
needed for Fiscal Year 2010 was based on the actual staff hours charged in Fiscal Year 2008.
Our review identified that the IRS did not have adequate staffing to timely work and assist
victims of identity theft in Fiscal Year 2009. On August 24, 2009, the IRS reported that it took


12
   Identity theft cases occur when an identity thief uses a legitimate taxpayer’s name and Social Security Number to
file a return to fraudulently claim a refund. As part of IRS efforts to provide assistance to taxpayers who are the
victims of identity theft, the IRS will place an identity theft indicator on victims’ accounts so that IRS personnel can
more easily recognize and assist the legitimate taxpayer in case of future account problems.

                                                                                                                Page 9
                Insufficient and Inexperienced Staff Could Reduce the Ability to
                               Detect and Stop Fraudulent Refunds



approximately 2 hours for the Criminal Investigation Division to close one identity theft case and
that they were receiving 800 cases per week. Based on these figures, the Accounts Management
function would need approximately 104,000 staff hours in Fiscal Year 2010 for the identity theft
workload; however, Accounts Management function will only be allocated 27,942 staff hours
since that is what Criminal Investigation Division employees charged in Fiscal Year 2008.
On June 30, 2009, Criminal Investigation Division management alerted management of the
Accounts Management function that they would not be able to complete the inventory of identity
theft cases by October 11, 2009. Management noted that staffing was not sufficient to timely
work identity theft cases. For Fiscal Year 2009, identity theft casework was centralized at the
FDCs in Fresno, California; Austin, Texas; and Ogden, Utah. However, the inventory increased
significantly and became so unmanageable that identity theft cases had to be redistributed to
seven other sites. In Fiscal Year 2008, the FDCs used 27,942 staff hours to work identity theft
cases. The Accounts Management function will be allocated the same number of staff hours
after the transition to work the identity theft inventory. However, the FDCs closed only
12,129 identity theft cases in Calendar Year 2008, while the number of case closures has more
than doubled in Calendar Year 2009 to 29,696 through August 24, 2009. Even if the volume of
identity theft cases remains at the Calendar Year 2009 level in Calendar Year 2010, the Accounts
Management function will experience the same staffing shortfalls and inventory backlogs that
the FDCs have encountered but it will not have the additional resources to redistribute the
workload.
The project plan was to complete the identity theft inventory prior to the transition. However, as
of August 22, 2009, the IRS reported 6,014 identity theft cases currently in inventory and the
inventory is increasing by 160 cases per week. As a result, approximately 11,000 identity theft
cases will be in inventory when the program transitions to the Accounts Management function.
It is critical that the IRS provides timely assistance to taxpayers who are victims of identity theft.
Delays in working identity theft cases because of the inventory backlogs can create an undue
burden on taxpayers whose refunds are legitimate.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should perform a
comprehensive analysis during the 2010 Filing Season to determine the average time to complete
one unit of work for each of the transitioned activities. The average time to complete one unit of
work should then be applied to the anticipated workload volumes to identify staffing resources
needed to timely complete these activities in Processing Year 2011.
       Management’s Response: The IRS management agreed with our recommendation.
       The IRS will analyze the volume of work and staff hours needed to perform the 2010
       Filing Season work in order to determine the resources required to timely complete the
       projected work in the 2011 Filing Season.

                                                                                              Page 10
                Insufficient and Inexperienced Staff Could Reduce the Ability to
                               Detect and Stop Fraudulent Refunds



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess IRS efforts to ensure a successful transition of
pre-refund fraud detection activities from the Criminal Investigation Division to the Wage and
Investment Division. To accomplish our objective, we:
I.     Evaluated the workload impact that the FDC Transition will have on pre-refund detection
       activities (i.e., scanning, verification, etc.) for the individual FDC locations.
       A. Attended FDC Workload Transition Team site visitations at Covington, Kentucky;
          Memphis, Tennessee; and Austin, Texas, and conducted walkthroughs of the FDCs at
          Atlanta, Georgia; and Memphis, Tennessee, to obtain an understanding of the
          pre-refund detection activities performed by FDC personnel.
       B. Obtained and reviewed policies and procedures issued to FDC personnel to perform
          the pre-refund detection activities.
       C. Met with Criminal Investigation Division and Wage and Investment Division
          representatives and obtained pertinent documentation to determine the pre-refund
          activities currently performed by each FDC and the post-transition activities that will
          be performed by each site.
       D. Prepared a matrix identifying the pre-refund activities performed by FDC sites before
          and after the transition.
       E. Met with Criminal Investigation Division and Wage and Investment Division
          representatives to determine which function will be the business owner of the EFDS
          after the transition and established each function’s responsibility in the determination
          of data-mining threshold scores and refund tolerance levels.
II.    Determined whether the governance and project management processes are effective to
       ensure implementation by October 11, 2009.
       A. Reviewed the Enterprise Life Cycle manual to identify required governance and
          project management processes and procedures.
       B. Obtained and reviewed the Project Management Plan to determine the governance
          and oversight in place to monitor the FDC Transition project.
       C. Attended the monthly Pre-Refund Program Executive Steering Committee meetings.



                                                                                            Page 11
               Insufficient and Inexperienced Staff Could Reduce the Ability to
                              Detect and Stop Fraudulent Refunds



       D. Obtained and reviewed the prior Pre-Refund Program Executive Steering Committee
          meeting minutes and briefing materials to determine how the status of the FDC
          transition is being reported.
       E. Met with Criminal Investigation Division and Wage and Investment Division
          representatives to discuss each function’s roles and responsibilities for the various
          FDC Transition project activities, including project oversight and management.
       F. Selected a judgmental sample of 100 Criminal Investigation Division employees
          (10 employees from each of the 10 FDC sites) at the GS-9 grade level and below
          from a population of 250 employees to assess the experience level of the current staff
          primarily performing the work transitioning to the Accounts Management function.
          We used a judgmental sample because no statistical projections were being made.
          We received responses from 61 of the 100 employees surveyed.
III.   Determined whether project management documentation was prepared to establish
       project justification and ensure a successful implementation.
       A. Reviewed the Enterprise Life Cycle manual to identify project documentation
          requirements for project initiation and management.
       B. Interviewed representatives from the Criminal Investigation Division, the Wage and
          Investment Division, and the Taxpayer Advocate Service to determine the expected
          benefits to the IRS and taxpayers with the realignment of selected QRP activities
          from the Criminal Investigation Division to the Wage and Investment Division.
       C. Obtained and reviewed the FDC Transition Business Case for project justification,
          including a cost-benefit analysis.
       D. Determined whether the project office established an effective method to accurately
          track the cost associated with the transition.
       E. Obtained and reviewed project deliverables (i.e., Project Implementation Plan,
          Communication Plan, etc.) developed for the FDC Transition project.
       F. Evaluated the analyses and supporting documentation for the project activities
          establishing the workload assessments and staffing requirements for the Wage and
          Investment Division.
       G. Reviewed the Internal Revenue Manuals and training materials developed for the
          pre-refund detection activities transitioning to the Accounts Management function.
IV.    Determined the effectiveness of project management controls.
       A. Interviewed FDC Transition project management to determine how they are
          monitoring project progress and performance.


                                                                                           Page 12
        Insufficient and Inexperienced Staff Could Reduce the Ability to
                       Detect and Stop Fraudulent Refunds



B. Attended the FDC Transition project meetings.
C. Obtained and reviewed status reports and project schedules used to monitor project
   progress and performance.
D. Determined whether issues are identified and tracked for resolution.
E. Determined whether risks are being identified by the project manager and risk
   mitigation measures are developed.
F. Interviewed the FDC Transition project manager to determine what measures are in
   place to elevate issues and risks for mitigation and what contingency plans have been
   developed to minimize the impact to the QRP in the event that the transition is not
   implemented timely.




                                                                                   Page 13
               Insufficient and Inexperienced Staff Could Reduce the Ability to
                              Detect and Stop Fraudulent Refunds



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Van A. Warmke, Lead Auditor
Lawrence N. White, Senior Auditor
Stephen A. Elix, Auditor




                                                                                    Page 14
               Insufficient and Inexperienced Staff Could Reduce the Ability to
                              Detect and Stop Fraudulent Refunds



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation Division SE:CI
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Refund Crimes, Criminal Investigation Division SE:CI:RC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 15
   Insufficient and Inexperienced Staff Could Reduce the Ability to
                  Detect and Stop Fraudulent Refunds



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 16
Insufficient and Inexperienced Staff Could Reduce the Ability to
               Detect and Stop Fraudulent Refunds




                                                          Page 17
Insufficient and Inexperienced Staff Could Reduce the Ability to
               Detect and Stop Fraudulent Refunds




                                                          Page 18
